                                     li
                        hnTIONAL SCIBNCE FOUNDATION
                          WASHINGTON! D.C. 20550
                                     '1




    Office of
Inspector General



MEMORANDUM
       DATE :
       FROM :
        VIA :

    SUBJECT:    Allegation of bdsuse ibf Funds at
                and Science Center 1~

         TO:    Case No. I93070024   '1

-
exit inte&iew  that he had incdrrectly reported employees1 time
charged to the gra              an active grant; the Principal
Investigator is Dr.
Officials at the                     found no evidence of misuse
of funds. Howev                       a1 of $8,525 in overcharges
to the grant, and stated that 4hey will deduct this amount from
their next re                  ion October 1, 1993, we issued a
memorandum to             the Grants Officer on this award, to
ensure that th           deducded.
                                     I
This case is closed.
                                     I
